No. 20-8101
IN THE

Supreme Court of the United States
JOSEPH WELDON SMITH,
Petitioner,
v.
PERRY RUSSELL, WARDEN, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PROOF OF SERVICE
AARON FORD
Attorney General of Nevada
JEFFREY M. CONNER*
Deputy Solicitor General
State of Nevada
Office of the Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
JConner@ag.nv.gov
* Counsel of Record
Counsel for Respondents

PROOF OF SERVICE
I, Jeffrey Morgan Conner, an attorney who is authorized to file a Brief in Opposition on
behalf of Respondents, hereby certify that on this 26th day of August, 2021, a copy of
Respondents’ Brief in Opposition was served by first-class mail to:
David Severen Anthony
Assistant Federal Public Defenders
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Fax: (702) 388-6261
Counsel for Petitioner
All parties required to be served have been served.

/s/Jeffrey Morgan Conner
Jeffrey Morgan Conner

